■*v :

20°B2

filed
MAY 2 5 2021
SUPREEMEfCni^RTLi^,<

THE SUPREME COURT of THE UNITED STATES of AMERICA

JESS HOWARD KRIEHN

— PETITIONER

VS.
LANCER INSURANCE

RESPONDENT

The Supreme Court of Nevada & The Eight Judicial District Court of Nevada
(NAME OF COURT THAT LAST RULED ON

YOUR CASE)

PETITION for WRIT of CERTIORARI
Jess Howard Kriehn
(Your Name)
420 S. Blue River Loop
(Address)
Vail, Arizona - 85641

(City, State, Zip Code)
(408) 425-9813
(Phone Number)

QUESTION(S) PRESENTED
These following questions of Certiorari mostly contain three main unconstitutional
scenarios, of which, require judicial clarity, and httpefully, virtuous & equitable
justice for the People ofAmerica, and therefore our posterity; being denied
access to civil courts over monetary restrictions is unconstitutional; being denied
counsel to properly defend & pursue justice for citizens in civil matters is
unconstitutional; and lastly, denying a sick, or injured person counsel is
unconstitutional.

1. Should a litigant be denied access to the civil courts; whom has been approved
to proceed via Fee Waiver; over a $500 bond;
and would thusly restrict all access to the courts for citizens on Fee Waivers;
which would then be tantamount to the very unconstitutional Poll Tax ?
2. Should an appeal, in state court, be justifiably denied because of a mix-up in the
mail; when the opposing party received their copies; but, the court did not?
3. Is the state not providing counsel to its citizens, in civil matters, an inaction in
direct violation of the concept & duty of the government to guarantee the civil
rights of its citizens;
for, most Pro Se litigants would not be allowed to represent another citizen; for
the very same reasons, that, they should not be allowed to represent themselves,
if, they choose not to proceed Pro Se?
4. Should not an injured litigant, or, a litigant with reasonable health disparities be
provided counsel by the state?
5. Should not a litigant be provided counsel, that, whom has had their case
graduated to a higher court; ofmayhapsty a federal courtroom; and/or the
supreme court; due to the complexity of the procedures, number of statues, and
the need to guarantee the rights of the citizens, preserve American ideals, and
the to ensure the virtue ofjustice?
6. Should a litigant who was a resident of the State of Nevada at the time, that, the
matter transpired; not be privy to the the laws, statues, & rights contained therein,
of the State of Nevada, in any following civil action; and thusly, the petitioner
would not be liable to pay the $500 bond for "out of state" claimants?
7. Should the courts keep using linguistic slurs such as "pauper* & "indigent" to
describe litigants whom are proceeding via Fee Waiver, when an atmosphere of
unbiased& virtuous justice must be maintained?

LIST OF PARTIES

XI All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

1. Harper v. Virginia Board of Elections, 383 U.S. 663 (1966)
- Similarity to Poll TaxIn the Ruling of Harper v. Virginia Board of Elections the
Justices wrote of the 14th Amendment - Section 1:
"No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens
of the United States,...
nor deny to any person within its jurisdiction
the equal protection of the laws."

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDEXA.

Demand for Bond Payment /Order Granting Dismissal

APPENDEX B.

,.........Rebuttal to Dismissal for Non Payment of Bond

APPENDEX C„„ Order from Nevada Supreme Court - Dimissal for Mail-Mishap
APPENDEX D.... Rebuttal to Dismissal for Mail-Mixup - Nevada Supreme Court
APPENDEX E.... Complaint with Physical Evidence of Negligent Auto Collision

TABLE OF AUTHORITIES CITED

CASES

PAGE NUMBER

1. Harper v. Virginia Board of Elections, 383 U.S. 663 (1966)
- Similarity to Poll Tax2. Kriehn v. The State of Nevada - Nevada District Court (A-19-797437-C)

STATUTES AND RULES
1. First Amendment - The United States of Constitution-Right to Redress Greivences
2. The Fourteenth Amendment - The United States Constitution - Equal Protection of Law
3. The Fourteenth Amendment - The United States Constitution - Right to Proper & Due Process of Law
4. NRS 18.130 & NRS 18.140 - Nevada Statute Requiring Bond Payment of Fee Waiver Litigants,
5. NRAP Rule 7-Nevada Court ofAppeals Rule stating No Bond Payment for Fee Waiver Litigants

On a tangential related side note:
OTHER
Should tiie courts continue use linguistic slurs such as "pauper* & Indigentm to describe litigants,
whom are proceeding via a fee waiver? The etymological roots tor these words and diminutive and
disrespectful; especially when, the terms are inaccurate. As, a litigant does not have to be a beggar
or a pauper to receive a fee waiver; and could have a job and support a family, but, does not have
the extra income for certain requirements from the court. Employing such negative connotations;
pauper & indigent, illuminate a paradigm of disrespect and impatience towards the financially
challenged; and, if, this language is permitted continue, it can be insidious and innocuously
destructive to the decision making process of the humans in charge of making the decisions; the
honorable judges & magistrates, and even weakens the moral of the general public, whom must use
the courts to redress their grievances. Please, no matter the outcome of this case; help to correct
this archaic & diminutive slur usage within the courts. -Thank you.

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
N/A - Dismissed on Technicalities

[ ] For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
: or.
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts: N/A -

Dismissed on Technicalities

The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the_
to the petition and is
appears at Appendix
[ ] reported at____
;or.
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was______________________ .
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
and a copy of the
Appeals on the following date:____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including______
in Application No.---- A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X For cases from state courts:
The date on which the highest state court decided my case was ^ 21stj 2021
A copy of that decision appears at Appendix —Q---[XI A timely petition for rehearing was thereafter denied on the following date:
UNKNOWN
, and a copy of the order denying rehearing
appears at Appendix__O
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1. First Amendment - The United States of Constitution - Right to Redress Greivences
2. The Fourteenth Amendment - The United States Constitution - Equal Protection of Law
3. The Fourteenth Amendment - The United States Constitution - Right to Proper & Due Process of Law
4. NRS 18.130 & NRS 18.140- Nevada Statute Requiring Bond Payment of Fee Waiver Litigants
5. NRAP Rule 7 - Nevada Court of Appeals Rule stating No Bond Payment for Fee Waiver Litigants

STATEMENT OF THE CASE
The nature of the action requiring Certiorari, arises from a civil complaint involving
damages from a negligent auto collision. This case has a police report with statements;
real damages, real eye-witnesses, and real physical evidence, all of which point to a
negligent act, that, requires remedy.
The case has not yet gone to trail, nor discovery, nor settlement conference; and the
case is still in the beginning stages of desired motions.
One of the defendant's motions was a motion to dismiss citing the authority of
NRS:18.130; requiring a $500 bond from "foreign" claimants, for "damages that may be
awarded," that of which, is the primary basis for the appeals in the state court
(Dismissal for Failure to Post Bond of 712312020)
The Plaintiff gave argument in open district court as to the procedure and rules of the
higher courts in Nevada not requiring bonds of such plaintiffs; as in fee waiver litigants.
NRAP Rule 7: BOND FOR COSTS ON APPEAL IN CIVIL CASES
"(a) When Bond Required. In a civil case, unless an appellant is exempted by
law, or has filed a supersedeas bond or other undertaking that includes security
for the payment of costs on appeal, the appellant shall file a bond for costs on
appeal or equivalent security in the district court with the notice of appeal.
But a bond shall not be required of an appellant who is not subject to costs."
Any monetary requirements of someone proceeding via a fee waiver; is essentially to deny
them justice and access to the courts; and could be likened to the Poll Tax, which kept and
would still keep, many Americans from exercising their given rights.
This case, given the complexities, and the health status of the claimant during
proceedings, needed to be provided counsel; however, the incapacitated claimant was not
given counsel to ensure the claimants rights. Very sick or injured litigants should be
provided counsel, as, they cannot effectively represent themselves.
This case has never seen a jury, nor, settlement conference; and is being delayed
entirely by the erroneous and unconstitutional requirement, of the $500 bond.

REASONS FOR GRANTING THE PETITION
The reasons for why the Supreme Court of the United States of America should employ
Certiorari in this case are clear, simple, and based in natural law; additionally, they are
demonstrative of the fact, that, no rights would exist, for very long, without the protection of
government and the cornerstone framework, so conceived, in the constitution; which,
guarantees such jurisprudence and deployment of Certiorari from the Supreme Court
There are three main specific constitutional conflicts with the scenarios of this case.
1. The Constitutional Right to Redress Grievances
2. The Constitutional Right to Due Process of Law
3. The Constitutional Right for Equal Protection from State
The First Amendment of the United States Constitution clearly states a citizen's right to have
grievances redressed via the petition of government:
"Congress shall make no law... abridging the freedom of speech, or
of the press; or the right of the people peaceably to assemble, and
to petition the Government for a redress of grievances.
NRS 18.130; which requires a bond to be left with the clerk; even for free waiver litigants; or else,
the case will not proceed; thusly, denying access to the courts for many Americans. This mentality
of legislation; which is protected by the First Amendment, is violated by NRS 18.130; as it creates
a barrier; and ergo, abridges the rights of many Americans.
The Fourteenth Amendment of United States Constitution guarantees equal protection law;
without abridgments, or, variation:
"... No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any state deprive any person
of life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws."
Equal protection in this case includes citizens from the State of Nevada, and, citizens from
outside the State of Nevada; which, according to the Fourteenth Amendment have equal
protection under the law; without abridgments, or, variation; like NRS 18.130 creates when it
requires bond from one citizen and not the other.
The Fourteenth Amendment also ensures due process of law; which, is another way to help
protect the rights of citizens. If, a fee waiver litigant is required to pay a large bond to proceed
with the case, then, the due process of law is not responsibly administered to the citizen.
Furthermore; if, a citizen is sick, or, injured, then naturally, they should be provided counsel, as
they cannot effectively represent themselves.
The details of this case include all of the above unconstitutional reasonings, and, also include
happenings, that, are naturally unfair and warrant the case to be reheard or given a summary
judgment. There was also a mix-up in the mail, at the state level appeals court; whereas, the
defendant received their copies, but the courthouse did not; and, then, subsequently denied the
appeal and issued a remitter. Also, expecting a sick & injured claimant to represent themselves is
unreasonable.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

5/23/2021

